                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM
                                                                                                                  11


Case Number: I05090048                                                                          Page 1 of 1       "



                                                                                                                   I/


         OIG opened this investigation based upon information provided by a Program officer'(p.0.) who
                                                                                                                   'I
         indicated his office had received two unrelated proposals2in response to a program
         announcement3,fi-om two separate institutions4,with different Principal 1nvestigatorsS,that                   ~i
         contained support letters with identical signatures. The P.O. stated that the support letters were
         fi-om two different individuals6, located in different parts of the country, but they contained the           1)


         same unknown signature.                                                                                        I



         The first individual7verified he submitted the support letter and confirmed the signature was his.             ,
         The second individual8verified the letter was indeed the one he wrote. However, he explained
         that he was unable to insert his signature electronically and authorized the P.I.' to sign it for him.
                                                                                                                            I/
         The P.I." was interviewed and explained he had mistakenly selected the wrong electronic
         signature file and placed it on the support letter. The electronic signature belongs to a                          11
         colleaguel1at a company12where he is employed as an editor of the online journal.
                                                                                                                            11


         The investigation revealed that the one P.I. mistakenly inserted the wrong electronic signature on
         the support letter submitted with his proposal. There appears to be no intentional wrongdoing on
                                                                                                                             ,
         the behalf of the P.I. His inadvertent actions did not result in his obtaining any benefit; it does                 11
         not appear to have caused any harm or changed the results of the award process.




NSF OIG Fonn 2 (1 1/02)                                                                                                           11
